No. 19-739
In the

Supreme Court of the United States
__________________

JULIUS BARBOUR, ET AL.,
Petitioners,
v.
HALLIBURTON COMPANY, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

__________________

REPLY BRIEF IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI
__________________

Michael D. Greer
Greer, Russell, Dent
& Leathers, PLLC
P.O. Box 907
Tupelo, MS 38802
(662) 842-5345

John G. Wheeler
Counsel of Record
Michael D. Chase
Mitchell, McNutt
& Sams, P.A.
P.O. Box 7120
Tupelo, MS 38802
(662) 842-3871
jwheeler@mitchellmcnutt.com

Counsel for Petitioners
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
I.

Respondents’ assertion that petitioners had
no right of appeal from the denial of their
claims is incorrect and, in any event, is
not material to the question of granting
review. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

II.

Petitioners’ possession of a property interest
subject to due process protections was not
contested below and is not negated by
respondents’ arguments . . . . . . . . . . . . . . . . . 6

III.

The “broad notice” touted by respondents was
plainly inadequate. . . . . . . . . . . . . . . . . . . . . . 9

IV.

Respondents’ “limited interest” in the
outcome of the appeal is not a reason to deny
review. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

ii
TABLE OF AUTHORITIES
CASES
Eisen v. Carlisle & Jacquelin,
417 U.S. 156 (1974). . . . . . . . . . . . . . . . . . . . . . . 10
Lake Eugenie Land Development, Inc. v. BP
Exploration & Production,
785 F.3d 986 (5th Cir. 2015). . . . . . . . . . . . . . . . . 5
Montez v. Hickenlooper,
640 F.3d 1126 (10th Cir. 2011). . . . . . . . . . . . . . . 5
United States v. International Brotherhood
of Teamsters, 905 F.2d 610 (2d Cir. 1990) . . . . . . 5
United States v. Story,
439 F.3d 226 (5th Cir. 2006). . . . . . . . . . . . . . . . . 6
OTHER AUTHORITY
Webster’s Third New International Dictionary
(Merriam-Webster 1986) . . . . . . . . . . . . . . . . . . . 2

1
ARGUMENT
I.

Respondents’ assertion that petitioners
had no right of appeal from the denial of
their claims is incorrect and, in any event,
is not material to the question of granting
review.

Respondents argue that this Court should deny
review based on their contention that petitioners had
no right to appeal to the court of appeals in the first
place. Respondents rely on provisions in the Settlement
Agreements foreclosing an appeal to the court of
appeals of the district court’s ruling on appeals from
claims determinations by the claims administrator in
cases where the claims appeal involved “the amount of
any payment” to a claimant. However, respondents
made this argument to the court of appeals seeking to
have the appeals dismissed on that basis, but the court
of appeals did not so hold and dismiss the appeal but
proceeded to decide the appeal on the merits.
Therefore, that contention is not properly before the
court and should not be considered as a basis for
denying review. In essence, respondents are asking this
Court to deny review of the important due process
issues presented by deciding an issue contested below
that is unrelated to due process and which the court of
appeals declined to resolve. That is manifestly
unwarranted.
In any event, respondents reach the conclusion that
the petitioners’ claims determinations involved “the
amount of any payment” only by torturing the English
language and ignoring the plain meaning of words. If
“payment” is given its literal, commonly understood

2
meaning, then the phrase plainly does not preclude
appeal. “Payment” is defined as “the act of paying or
giving compensation” or “something that is paid.”1 As
a result of the Claims Administrator’s departure from
the terms the Settlement Agreement regarding the
requirements for entitlement to compensation, he did
not “give compensation;” he denied compensation, and
nothing was paid. Since the Claims Administrator
denied any payment to the petitioners, then these
appeals are not from a determination as to “the amount
of any payment to any individual claimant.”
Respondents offer no cogent explanation of how the
absence of a payment can logically or linguistically be
deemed to be a payment. A “zero payment” is not a
payment. A determination that a claimant is not
entitled to any payment is the antithesis of a payment.
The dispute is not over an allocated amount of
compensation, but over the total exclusion of the
petitioners from any participation in the settlements.
It is apparent that this provision was intended to
speed up the claims determination process by
foreclosing appellate review of strictly factual and
computational decisions that would affect the size of a
claimant’s recovery (for example, an issue of whether
a commercial fisherman claimant was a boat captain or
merely a boat pilot or actually possessed the license
required to qualify under a particular claim type). The
claims administrator’s decisions on petitioners’ claims
were not based on any comparable consideration.
Rather, the basis for the decisions involved legal issues
1

Webster’s Third New International Dictionary (Merriam-Webster
1986).

3
and went to the very heart of whether the petitioners
were eligible to participate in the settlement.
The claims administrator determined that the
petitioners were not entitled to compensation under the
settlements because their lack of a pending individual
lawsuit pursuant to PTO 60 left them without standing
under maritime law to recover punitive damages. The
appeals of those decisions did not “involv[e] the amount
of any payment to any individual claimant.” Rather,
petitioners were contesting a decision that they were
“not entitled to any payment,” so the appeal provision
does not preclude appellate review, but expressly
preserves it.
Respondents suggest that decisions that a claimant
is “not entitled to any payment” are appealable only if
based on a determination that a claimant is not in the
settlement class. This argument disregards the fact
that non-membership in the settlement class was, in
substance if not in form, the basis for the petitioners’
exclusion from compensation. Since standing to recover
punitive damages was inherent in the class definition
(because the definition is expressly intended to capture
all affected persons having any arguable basis to claim
standing), then the exclusion from receiving
compensation based on not having a pending lawsuit
and thus purportedly lacking standing was, in effect,
based on a failure to meet the class definition.
Respondents argue that petitioners were not
excluded “due to a failure to meet the class definition”
because “Petitioners do not dispute that they meet the
class definition.” That argument is disingenuous,
because although the petitioners certainly contend that

4
they meet the class definition—and thus, under the
plain terms of the Settlement Agreements, are entitled
to receive compensation—compensation was denied
based on the claims administrator’s ultimate decision
that petitioners were not in the settlement class. The
claims administrator’s reasoning effectively removed
petitioners from the class by essentially adding to the
class definition a requirement of a current pending
lawsuit for compensatory damages at the time a claim
application was submitted, which does not appear in
the Settlement Agreements, and then denying
compensation because petitioners did not meet that
revised definition.
Respondents’ argument also disregards the fact that
under the Settlement Agreements the right to
compensation was based solely on meeting the
definition for membership in the settlement class, and
there was no additional requirement that a claimant
present proof of actual loss (which is a requirement for
receiving punitive damages under maritime law).
Instead, the claims administrator would determine
probable losses from statistics and assign compensation
under the Settlement Agreements on a 1:1
compensatory-to-punitive ratio. Thus, at the time the
Settlement Agreements were entered into—long before
the Distribution Model was promulgated—the only way
a claimant could be “not entitled to any recovery” was
if the claimant was not a member of the settlement
class.
In any event, respondents acknowledge that the
petitioners raised the same due process arguments in
a Rule 60 motion for relief and that the District Court’s

5
order denying that motion was appealed and
consolidated with the cases challenging the magistrate
judge’s claims-appeal decisions. Appeal from that order
on the Rule 60 motion could not be foreclosed by an
order disallowing an appeal to the Article III judge
from a magistrate judge’s ruling on claims appeals that
challenge the amount of money awarded to a claimant
by the claims administrator.
Respondents’ argument also ignores the established
rule that, for a waiver of appeal rights in a class-action
settlement to be valid, the waiver must clearly and
unambiguously apply to the issue as to which appeal is
sought. United States v. International Brotherhood of
Teamsters, 905 F.2d 610, 615 (2d Cir. 1990); Lake
Eugenie Land Development, Inc. v. BP Exploration &
Production, 785 F.3d 986, 997 (5th Cir. 2015); Montez
v. Hickenlooper, 640 F.3d 1126, 1132 (10th Cir. 2011).
As noted above, the respondents’ interpretation
depends on ignoring the plain meaning of words and is
based on a premise—that one could be “not entitled to
any payment” in some other way than by being
excluded from the settlement class—whose factual
predicate did not arise until after the Distribution
Model was promulgated, months after the Settlement
Agreements were executed. Thus, at best for
respondents, the provision in question is ambiguous
regarding whether it precludes these appeals and,
therefore, does not preclude them.
For these reasons, the magistrate judge’s decisions
on the claims appeals of these petitioners were
appealable, and, as noted, the court of appeals did not
hold otherwise. As respondents’ conceded below, the

6
question of the applicability of the appeal waiver to
these appeals had no bearing on the jurisdiction of the
court of appeals. See United States v. Story, 439 F.3d
226, 230-31 (5th Cir. 2006) (appeal waivers do not
deprive the court of jurisdiction to consider an appeal).
Therefore, respondents’ contention that the appealwaiver issue they unsuccessfully raised below is a
reason for this Court to deny review is without merit.
II.

Petitioners’ possession of a property
interest subject to due process protections
was not contested below and is not negated
by respondents’ arguments.

Respondents concede that the facts of this case give
rise to legitimate questions of whether the notice given
to petitioners comported with due process
requirements. However, they nevertheless urge this
Court to ignore these serious issues as essentially moot
based on their contention that the petitioners did not
have a property interest in the settlement and thus had
no right to due process. However, respondents did not
make that argument below, and the court of appeals
did not so hold. Therefore, respondents’ contention is
not properly before the court and should not be
considered as a basis for denying review. In any event,
the respondents cite no authority negating the
petitioners’ assertion of a property interest arising from
settlement agreements in which they were part of the
described settlement class, and their argument is
contrary to authority cited below without controversion
and in the Petition.
Furthermore, the respondents effectively refute
their own argument by stating that “Petitioners did not

7
have a property interest in the settlement proceeds
until demonstrating their underlying compensatory
damages claim.” In tying a property interest to the
possession of an underlying compensatory damages
claim, respondents effectively concede that petitioners
had a property interest when the Settlement
Agreements were entered into, because it was
undisputed below that at that time petitioners had
viable causes of action for compensatory damages
against respondents, and those claims were being
asserted through pending class action lawsuits in
which petitioners were in the plaintiff class.
Petitioners were deprived of that property by the
claims administrator’s later use of PTO 60 to deny
compensation, without giving constitutionally adequate
notice to petitioners that they needed to comply with
PTO 60 and that they would be divested of the right to
receive compensation under the Settlement
Agreements if they did not do so.
Respondents point to the Settlement Agreements’
provision that the settlement class definition was
intended to sweep in all “potential claimants” who
“may have valid maritime law standing” as purportedly
showing that a person could be within the settlement
class definition and yet not have a property interest.
They contend that the words “potential” and “may
have” indicate that class members only had a potential
for recovery and could be determined not to have
standing despite meeting the class definition. However,
the phrase “potential claimants” simply recognizes the
truism that one could not recover under the
settlements without submitting a claim to the Claims
Administrator and that some members of the

8
settlement class might not, for whatever reason,
submit a claim.2 Thus, all class members were only
“potential claimants” at the outset. The reference to
capturing all those who “may have” standing is merely
an acknowledgement that not all persons within the
New Class definition had clear and well-established
maritime law standing under existing Fifth Circuit
precedent; although the standing of some class
members was well established (for example, those who
sustained actual physical damage to real property
caused by the oil spill), the standing of others was less
clear and not established under Fifth Circuit law
(commercial fishermen) while that of others was
questionable at best (charter boat operators and
subsistence fishermen). The clear intent was to include
in the class and subclass definitions those who might
be held to have standing if the matter were litigated
but whose standing was not settled or not highly likely
to be established in that event. In other words, the use
of “may have” was a consequence of the fact that the
parties had crafted the class and subclass definitions to
include in the settlement all potential claimants who
had any arguable claim to standing under existing
maritime law or a foreseeable extension thereof. There
is simply no textual or logical support for the notion
that the “may have standing” language means that a
person making a claim could be within the class
definition but still be excluded from compensation.
Thus, all members of the settlement class had a
property interest in the settlements from the time they
were entered into.
2

For example, members of the settlement class might opt out of
the settlements.

9
III.

The “broad notice” touted by respondents
was plainly inadequate.

Respondents preface their arguments with the
incorrect statement that petitioners have
acknowledged that they received notice of the PTO 60
compliance requirement as of the filing of the proposed
Distribution Model some two weeks before the deadline
for responding to the District Court’s show-cause order.
However, this was not asserted below by either the
respondents or the claims administrator appearing
before the court of appeals as amicus curiae, but was
an unwarranted assumption by the court of appeals
that factored critically in its decision. To the contrary,
the petitioners argued that they did not even receive
notice of the PTO 60 compliance requirement through
the short-form notices (which were mailed after the
Distribution Model was filed) or the long-form notice
posted on the settlement website. The mere filing of the
Distribution Model for approval did not give
constructive notice of the PTO 60 compliance
requirement to the petitioners, and in any event the
Distribution Model contained no hint of any purported
opportunity for “mercy” supposedly afforded by the
show-cause order. The petitioners attempted to correct
the faulty assumption in their motion for panel
rehearing, which the court of appeals summarily
denied without opinion or analysis. This Court should
disregard that false premise perpetuated here by
respondents in considering whether to grant the
petition.
Respondents’ defense of the means of notice with
respect to the PTO-60 compliance requirement is that

10
it was consistent with the requirements of Eisen v.
Carlisle & Jacquelin, 417 U.S. 156 (1974), because,
they say, under Eisen “broad notice” such as that given
here is constitutionally sufficient if class members’
names and addresses are not easily available. That
argument, of course, begs the question of whether it
would have been feasible to give petitioners direct
notice and ignores the fact that, as noted in the
Petition, the claims administrator did not represent to
the court of appeals that a determination had been
made that direct notice to menhaden fishermen was
impracticable or that any effort had even been made to
explore the feasibility of direct notice and, in fact,
disclosed to the court that a potential ready source of
contact information for menhaden fishermen was
known to the claims administrator.
Moreover, respondents’ defense of the means of
notice disregards the patent deficiencies in the content
of the notice with respect to the PTO 60 compliance
requirement. As explained in the Petition, the “broad
notice” touted by respondents was silent or misleading
as to the effect of PTO 60 on the settlements (which
were entered into long before PTO 60 was entered), the
need for certain settlement class members to file
individual lawsuits in order to remain a member of the
class even though their claims for punitive damages
had already been settled, or any potential opportunity
for retroactive compliance with a deadline that had
already passed.
In short, petitioners have presented a compelling
case that the notice requirements of Eisen and other

11
cases were disregarded. That disregard warrants
correction by this Court to vindicate its precedents.
IV.

Respondents’ “limited interest” in the
outcome of the appeal is not a reason to
deny review.

Respondents argue that this Court should deny
review because of their professed lack of a personal
stake in the outcome and the consequent purported
lack of an adversarial relationship between the parties.
That argument is ironic, since generally the lack of
opposition to a party’s position results in that party
prevailing by default. In any event, it should not be
held against the petitioners that the court of appeals
deemed the respondents to be the proper appellees and
that no person deemed by the court of appeals to have
the interest necessary to give them standing appeared
before the court to seek leave to intervene as an
appellee to contest the petitioners’ due process
arguments and argue in support of denying them
compensation under the Settlement Agreements. The
argument also overlooks the fact that the claims
administrator’s amicus brief below, while professing
agnosticism regarding the merits of the appeal and
purporting to give the court “just the facts,” was
actually quite adversarial and had a distinctly
argumentative tone, perhaps carried over from the
claims administrator’s unsuccessful attempt to
intervene as an appellee, which was denied by the
court of appeals based on the claims administrator’s
lack of a legally cognizable interest in the outcome.
Furthermore, as noted in the Petition, the court of
appeals compensated for any supposed lack of

12
adversativeness by reaching to decide the case and
deny relief based on positions that neither the
appellees nor amicus argued or even identified. In any
event, if respondents’ “limited interest” were a
legitimate concern, this Court could invite the claims
administrator to submit a brief on the merits
supporting the respondents, since it is quite apparent
that the claims administrator has from the outset had
a clear and strong preference regarding the outcome of
this case.
CONCLUSION
For the foregoing reasons, respondents have
presented no cogent arguments for denying review of
the decision of the court of appeals. Accordingly, for the
reasons stated in the Petition, the Court should issue
the requested writ of certiorari.
Respectfully submitted,
Michael D. Greer
Greer, Russell, Dent
& Leathers, PLLC
P.O. Box 907
Tupelo, MS 38802
(662) 842-5345

John G. Wheeler
Counsel of Record
Michael D. Chase
Mitchell, McNutt
& Sams, P.A.
P.O. Box 7120
Tupelo, MS 38802
(662) 842-3871
jwheeler@mitchellmcnutt.com

Counsel for Petitioners

